No. 19-247

 

IN THE

Supreme Court of the United States

CITY OF BOISE,

Petitioner,
v.

ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F’. BELL, PAMELA S. HAWKES,
AND BASIL E. HUMPHREY,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICI CURIAE CALIFORNIA
STATE ASSOCIATION OF COUNTIES AND
33 CALIFORNIA COUNTIES AND CITIES
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,913 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2019.

0

 

Colin Casey Hegan
Wilson-Epes Printing Co., Inc.
